2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Le g al Brie fs E-Mail Address:

Fe. 1034 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-764

MARK E. O’BRIEN,
Petitioner,
v.
U.S. BANK TRUST, N.A., AS TRUSTEE FOR
LSF9 MASTER PARTICIPATION TRUST,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 2884 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of February, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska & Chih
i RENEE J. GOSS 9. X

Notary Public

 

: My Comm. Exp. September 5, 2023,

Affiant 40602
